               Important Progress Has Been Made in Using
                 Research to Improve Programs for Large
                   Businesses, but Challenges Remain

                                    August 2004

                        Reference Number: 2004-30-130




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        August 12, 2004


       MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                      DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Important Progress Has Been Made in Using
                                      Research to Improve Programs for Large Businesses, but
                                      Challenges Remain (Audit # 200330015)


       This report presents the results of our review of the Large and Mid-Size Business
       (LMSB) Division Research Unit. The overall objective of this review was to assess the
       progress the LMSB Division1 is making in (1) addressing the concerns raised in past
       studies of the Internal Revenue Service’s (IRS) research operations, (2) integrating its
       research operation into key business decision-making processes, (3) using research for
       improving performance on strategic initiatives, and (4) aligning its research processes
       with best practices adopted by other research programs.
       In summary, studies of the IRS between 1995 and 2001 identified concerns about
       whether its research programs2 were generating research that was both relevant and
       effective. Four of the five studies3 we reviewed, for example, discussed the need to
       increase customer involvement in the research process so that the areas of greatest
       interest and need were being addressed, and to establish measures for evaluating the
       effectiveness of research results. Four of the five studies also surfaced concerns about
       whether the research staff had the appropriate mix of skills and whether the processes
       used for managing the research were adequate.

       1
         The LMSB Division serves corporations, sub-chapter S corporations, and partnerships with assets greater than
       $10 million.
       2
         In this report, we collectively refer to the IRS research programs as consisting of the research units in the operating
       divisions, the National Headquarters Office of Research, and the research unit for the Criminal Investigation
       function.
       3
         See Appendix I for the specific studies we reviewed.
                                                      2

In conjunction with the agency’s overall reorganization effort, the IRS developed a
blueprint in March 2000 to guide how its research programs would be modernized by
establishing research units in each of its operating divisions.4 We determined that the
LMSB Division Research Unit is providing the organizational structure and customer
focus to address areas with the greatest interest and necessity, while implementing the
IRS’ vision for research as outlined in the blueprint. To date, LMSB Division executives
have focused considerable effort and made important progress to integrate the
Research Unit’s results into key decision-making processes and to improve the
effectiveness of strategic initiatives for large businesses. As reflected in its strategic
planning documents, the LMSB Division expects the Research Unit to provide, and
relies on it for, decision support to improve its programs, particularly those that enforce
and encourage voluntary compliance, as well as to help answer questions about how
best to spend its over $700 million annual budget. For example, the Research Unit
provides analysis for the LMSB Division’s strategic assessments that identifies trends,
issues, and problems along with proposed operating priorities. Further, it is developing
up-to-date information for understanding large businesses’ compliance with the tax laws
and is using this information to build and refine automated, risk-based scoring systems
for identifying and prioritizing potentially noncompliant large businesses for examination
of their tax returns.
In regard to its Research Unit employees, the LMSB Division, like many areas within the
Federal Government, faces the challenge of acquiring needed skills and competencies
to improve program effectiveness. To meet this challenge, a Training and
Organizational Assessment Project was completed in Calendar Year (CY) 2002 that
identified potential gaps in training and skills for the LMSB Division’s research staff.
Additionally, business cases were made early in CY 2004 for hiring a statistician, an
economist, and other individuals with expertise in research disciplines to maintain and
develop tools for working with an integrated network of compliance databases that are
being created.
While important progress has been made to use research for improving programs
devoted to large businesses, challenges remain concerning internal operational
processes and procedures in three areas. First, the LMSB Division processes for
managing research do not always follow best practices, particularly in the area of
enhancing the credibility of research results. Office of Management and Budget
guidelines, for instance, indicate that having the capability of replicating research can
enhance the credibility of results, increase opportunities for improvement, and avoid
perceptions of bias. However, we determined that key source documents needed to
independently confirm the validity of the LMSB Division research results were not
consistently maintained in project files.
Second, the LMSB Division could improve the process for evaluating the effectiveness
of research efforts. Although the LMSB Division can show benefits from some of its


4
 The four operating divisions are the Wage and Investment, Small Business/Self-Employed, Large and Mid-Size
Business, and Tax Exempt and Government Entities Divisions.
                                            3

research projects, it does not have a systemic process to measure research outcomes
against intended results. As a result, the LMSB Division cannot readily determine
whether specific projects are achieving their objectives or answer important questions
such as “What impact is the research having?” Finally, research projects could be
better managed by using project management techniques. These techniques are
designed to develop plans and control systems to ensure research is completed on time
and within budget so that needed information is available for executive decision-making
purposes.
Given the expectations of the LMSB Division Research Unit and the significant level of
resources that are depending on its work, we made three recommendations to enhance
the processes for managing the research. The Director, Strategy, Research, and
Program Planning, LMSB Division, should develop, define, and adopt (1) procedures
that will ensure all research support information is consistently maintained in project
files, (2) a systematic process for measuring research efforts, and (3) guidelines for
determining whether individual projects and the related activities are on time and within
budget.
Management’s Response: IRS management agreed with our findings, and their
corrective actions are responsive to our recommendations. The Commissioner, LMSB
Division, responded that research processes and procedures will be improved by
developing and issuing guidelines for maintaining project documentation, measuring
research project results, and implementing a Time Reporting System. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
               Important Progress Has Been Made in Using Research to Improve
                   Programs for Large Businesses, but Challenges Remain




                                                  Table of Contents


Background ............................................................................................... Page 1
The Large and Mid-Size Business Division Is
Implementing the New Research Vision As Planned................................. Page 2
The Large and Mid-Size Business Division’s Processes
for Managing Research Do Not Always Follow Best Practices.................. Page 6
         Recommendations 1 and 2: .......................................................... Page 11
         Recommendation 3: ...................................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Organizational Chart of the Internal Revenue Service’s
              Research Operation......................................................... Page 17
Appendix V – The Internal Revenue Service’s Quality Standards
             for Research Projects ......................................................... Page 18
Appendix VI – Management’s Response to the Draft Report .................... Page 21
             Important Progress Has Been Made in Using Research to Improve
                 Programs for Large Businesses, but Challenges Remain

                                 Studies of the Internal Revenue Service (IRS) between 1995
Background
                                 and 2001 identified concerns about whether its research
                                 programs1 were generating research that was both relevant
                                 and effective. Four of the five studies2 we reviewed, for
                                 example, discussed the need to increase customer
                                 involvement in the research process so that the areas of
                                 greatest interest and need were being addressed, and to
                                 establish measures for evaluating the effectiveness of
                                 research results. Four of the five studies also surfaced
                                 concerns about whether the research staff had the
                                 appropriate mix of skills and whether the processes used to
                                 manage the research were adequate.
                                 In conjunction with the agency’s overall reorganization
                                 effort, the IRS developed a blueprint in March 2000 to guide
                                 how its research programs would be modernized by
                                 establishing research units in each of its operating
                                 divisions.3 The units are intended to provide the
                                 organizational structure and customer focus for dealing with
                                 past concerns over whether research was addressing areas
                                 with the greatest interest and necessity.
                                 As planned, the IRS organized its research operation in a
                                 decentralized manner with a research unit in each of its four
                                 operating divisions and the National Headquarters (NHQ)
                                 Office. A director who is also part of a high-level
                                 leadership group called the Servicewide Research Council
                                 (SRC) heads each research unit. In the Large and Mid-Size
                                 Business (LMSB) Division, the research director is an
                                 executive-level manager who has responsibility for a staff of
                                 researchers located in various offices across the country.
                                 Appendix IV shows the IRS’ decentralized research
                                 operation structure. It also shows that the Director, NHQ
                                 Office of Research, does not have line authority over the
                                 research teams in the operating divisions. Rather, the

                                 1
                                   In this report, we collectively refer to the IRS research programs as
                                 consisting of the research units in the operating divisions, the National
                                 Headquarters Office of Research, and the research unit for the Criminal
                                 Investigation function.
                                 2
                                   See Appendix I for the specific studies we reviewed.
                                 3
                                   The four operating divisions are the Wage and Investment, Small
                                 Business/Self-Employed, Large and Mid-Size Business, and Tax
                                 Exempt and Government Entities Divisions.
                                                                                                   Page 1
             Important Progress Has Been Made in Using Research to Improve
                 Programs for Large Businesses, but Challenges Remain

                                   Commissioners and Directors of Research in each operating
                                   division control budget and resources needed for their
                                   respective research teams.
                                   The research staff in the NHQ Office of Research works
                                   through the SRC to develop and maintain national research
                                   databases and conducts long-term research projects of
                                   agency-wide interest. In the operating divisions, researchers
                                   concentrate on their specific groups of taxpayers in projects
                                   that have relatively short time periods, such as a year. With
                                   a geographically dispersed research staff, the SRC’s role is
                                   to support, guide, and coordinate research activities across
                                   organizational boundaries.
                                   Specific activities of the SRC may include identifying and
                                   meeting training and data needs, as well as promoting and
                                   marketing research products to internal and external
                                   stakeholders. The SRC, through its Quality Assurance
                                   Council (QAC), also monitors and provides feedback to
                                   researchers on the quality of completed projects. To define
                                   research quality, the QAC uses 11 standards for research
                                   planning and 8 standards for research reporting. Each
                                   standard also has several key elements that elaborate on the
                                   overall standard. Appendix V has more details on the QAC
                                   standards and their associated elements.
                                   This review was performed at the LMSB Division
                                   Headquarters in Washington, D.C., and offices in
                                   Pittsburgh, Pennsylvania; Buffalo, New York; and
                                   Oakland, California, during the period September 2003
                                   through February 2004. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   The LMSB Division Research Unit is providing the
The Large and Mid-Size Business    organizational structure and customer focus to address areas
Division Is Implementing the New   with the greatest interest and necessity, while implementing
Research Vision As Planned         the IRS’ vision for research as outlined in the blueprint. To
                                   date, the LMSB Division Commissioner and executives
                                   have provided the general direction for the Research Unit,
                                   while focusing considerable effort and making important
                                   progress in integrating research results into key

                                                                                         Page 2
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    decision-making processes and improving the effectiveness
                    of strategic initiatives4 for large businesses. For example,
                    the Research Unit:
                        •    Provides analysis for the LMSB Division’s strategic
                             assessments that identifies trends, issues, and
                             problems along with proposed operating priorities.
                        •    Identifies potential issues and risk information
                             involving multinational entities to improve
                             international tax administration.
                        •    Evaluates how best to identify and address
                             compliance risks involving complex organizational
                             structures that cross tax periods and entity types.
                        •    Is developing up-to-date information for
                             understanding large businesses’ compliance with the
                             tax laws and using this information to build and
                             refine automated, risk-based scoring systems for
                             identifying and prioritizing potentially noncompliant
                             large businesses for examination of tax returns.
                             These automated systems will allow the LMSB
                             Division to replace the practice of simply relying on
                             the experience and judgment of examiners to
                             manually screen large business tax returns for
                             noncompliance.
                    Overall, the Research Unit is implementing the vision,
                    under the direction of LMSB Commissioner and other
                    executives, given to it in conjunction with the IRS’ overall
                    reorganization effort.


                    4
                      The LMSB Division’s strategic initiatives are to (1) develop/enhance
                    methodologies to identify LMSB Division compliance risks and use
                    productivity improvements to ensure the most efficient and balanced use
                    of LMSB Division reporting compliance resources in addressing these
                    risks; (2) build a tax administration to deal effectively with
                    globalization; (3) develop and institutionalize a comprehensive issue
                    management strategy; (4) recruit, develop, and retain a highly qualified
                    and skilled workforce; and (5) combat abusive tax avoidance
                    transactions (ATAT) by providing early-investing guidance, addressing
                    shelters at the promoter level, and increasing the strength of ATAT issue
                    development.

                                                                                     Page 3
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    As reflected in its strategic planning documents, the LMSB
                    Division expects and relies on its Research Unit’s results for
                    decision support to improve its programs, particularly those
                    that enforce and encourage voluntary compliance, as well as
                    to help answer questions about how best to spend its over
                    $700 million annual budget. Strategic planning documents
                    state:
                            [The] LMSB [Division] relies upon the work of our
                            Research component for systems to identify areas of
                            compliance risk, emerging issues, the size and scope
                            of compliance issues, and patterns of non-compliant
                            behavior within our customer base using internal
                            and external information. Our strategic assessment
                            identified the critical need for a system to deliver a
                            predictive model identifying: 1) taxpayers who have
                            the potential to be influenced by pre-filing products,
                            2) returns with unreported income, 3) returns likely
                            to include participation in abusive corporate tax
                            shelters, and 4) other factors which are indicators of
                            compliance risk. Research is working to develop a
                            prototype to respond to this need. Prototype
                            accomplishments could be used immediately and
                            final prototype results will fit within current
                            Modernization blueprints. In [Fiscal Year] FY 2004
                            Research will continue work on improving the
                            Form 10655 scoring model and programs to improve
                            our ability to estimate voluntary compliance levels.
                    At the time of our review, the LMSB Division had also
                    begun to address concerns regarding the skills and
                    competencies of the research staff. The Research Unit has
                    an annual budget of approximately $7 million6 and
                    54 full-time equivalents (FTE)7 on staff. Our analysis of the
                    distribution of skills across the staff showed a mix of
                    specialized skills in economics, statistics, computer


                    5
                      U.S. Return of Partnership Income.
                    6
                      This is according to the LMSB Division FY 2003 Research Operating
                    Budget.
                    7
                      A measure of labor hours in which 1 FTE is equal to 8 hours
                    multiplied by the number of compensable days in a particular fiscal
                    year. For FY 2004, 1 FTE is equal to 2,096 staff hours.
                                                                                 Page 4
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    research, and program analysis. Researchers have extensive
                    institutional knowledge considering that, on average, they
                    have worked in IRS operations for approximately 20 years.
                    In regard to its Research Unit employees, the LMSB
                    Division, like many other areas within the Federal
                    Government, faces the challenge of acquiring needed skills
                    and competencies to improve program effectiveness. To
                    meet this challenge, a Training and Organizational
                    Assessment Project was completed in Calendar Year
                    (CY) 2002 that identified potential gaps in training and
                    skills for the LMSB Division’s research staff. Additionally,
                    business cases were made early in CY 2004 for hiring a
                    statistician, an economist, and other individuals with
                    expertise in research disciplines to maintain and develop
                    tools for working with an integrated network of compliance
                    databases that are being created.
                    While important progress has been made to use research for
                    improving programs devoted to large businesses, challenges
                    remain concerning internal operational processes and
                    procedures in three areas. First, the LMSB Division
                    processes for managing research do not always follow best
                    practices, particularly in the areas of enhancing the
                    credibility of research results. Second, the LMSB Division
                    could improve the process for evaluating the effectiveness
                    of research efforts. Finally, research projects could be better
                    managed by using project management techniques.
                    Our discussions with LMSB Division officials indicate that
                    the weaknesses we identified in the processes for managing
                    research were due to focusing on other priorities brought on
                    by the transition from the old IRS structure to the new one.
                    During the transition, for example, officials were focused on
                    simultaneously managing ongoing research projects while
                    assigning staff to the new operating divisions and laying the
                    groundwork for the long-term modernization of the IRS
                    research program. Consequently, the research staff has been
                    relying on old work processes that were not as effective as
                    they should be, according to prior studies.




                                                                            Page 5
             Important Progress Has Been Made in Using Research to Improve
                 Programs for Large Businesses, but Challenges Remain

                                    Among the well-established best practices in the research
The Large and Mid-Size Business     community is that research should have the capability of
Division’s Processes for Managing   being reproduced. Office of Management and Budget
Research Do Not Always Follow       (OMB) guidelines, for example, indicate that having the
Best Practices                      capability of replicating research can enhance the credibility
                                    of results, increase opportunities for improvement, and
                                    avoid perceptions of bias. Similarly, the IRS provides
                                    through its Records Management Program8 that, because of
                                    the unique nature of research records, most are required to
                                    be maintained for several years, while many should be kept
                                    permanently.
                                    The credibility of research results can be enhanced by
                                    ensuring source information used in research is
                                    consistently maintained in project files
                                    We used the IRS’ SRC quality standards and criteria
                                    developed by the OMB to evaluate the design, data
                                    collection and analysis techniques, and reports from a
                                    judgmental sample of six research projects. Our results
                                    showed that, overall, many aspects of the research processes
                                    were documented and that the SRC quality standards were
                                    followed. For example, the:
                                        •    Questions to be answered and the basis for the
                                             research were stated clearly in the design of the
                                             projects.
                                        •    Methods and sources for collecting the data needed
                                             for the projects were described and appeared
                                             appropriate.
                                        •    Procedures for forming and processing automated
                                             data were outlined.




                                    8
                                      The major goals of the Records Management Program are to furnish
                                    accurate and complete information when required to manage and
                                    operate the organization and to provide information and records storage
                                    at the lowest possible cost. These goals are accomplished by creating
                                    only necessary records; organizing and maintaining records efficiently;
                                    and ensuring the protection, preservation, and efficient disposition of all
                                    records according to law.
                                                                                                       Page 6
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                        •    Methodological strengths and limitations were
                             identified, and the costs and benefits for resolving
                             the projects’ questions were analyzed and presented.
                    However, in reviewing the research project files, we
                    determined that key source documents needed to
                    independently confirm the validity of the LMSB Division
                    research results were not consistently maintained in the
                    project files. As a result, questions can be raised about
                    whether the research is as credible as it could be and free of
                    any bias.
                    For example, the project files supporting the report entitled
                    Partnership Selection System for LMSB - A Data Mining9
                    Proof-of-Concept did not contain the source data collection
                    checksheets. The checksheets were an integral part of the
                    project because they documented the decision-making
                    process (judgments) used by experienced examiners in
                    reviewing 2,086 returns and deciding to select (or not select)
                    the returns for examination. The examiner judgments, as
                    reflected on the checksheets, were ultimately programmed
                    into an automated data mining process that is currently
                    identifying the LMSB Division partnership returns for
                    examination.
                    Additionally, the project files for the report on High Range
                    Corporation Return Workload Selection System
                    Development did not have the source Audit Information
                    Management System (AIMS) database used in the project.
                    The AIMS database was a critical component of the project
                    because it contained results from prior examinations of large
                    corporate returns. The mathematical formulas, which relied
                    extensively on the AIMS database, were developed for
                    deciding which large corporate returns should be examined.
                    According to documentation in the file, the researchers had


                    9
                     According to the report, data mining is a “methodology used to
                    autonomously interrogate a database for patterns and clusters. Data
                    mining is based in part on statistics and a field of artificial intelligence
                    designed to emulate human perception known as machine learning.
                    Unlike traditional data analysis programs, data mining tools perform the
                    analysis automatically and formulate their solutions in graphical
                    decision trees or set [sic] of rules.”
                                                                                        Page 7
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    to overcome problems with the source AIMS database
                    obtained for the project.
                    To overcome the problems, the researchers eliminated over
                    15,000 records they determined would not be needed for the
                    formulas and used the remaining 16,415 records in
                    developing the formulas. Although the reasons for
                    removing the records were documented, the absence of the
                    source AIMS database makes it difficult, if not impossible,
                    to validate that all the data intended to be used in developing
                    the formulas were, in fact, used.
                    The effectiveness of research efforts needs to be
                    measured
                    Although the LMSB Division can show benefits from some
                    of its research projects, the effectiveness of the overall
                    research program needs to be measured. For example, the
                    projects developing the automated systems that are
                    replacing the practice of using examiners to identify tax
                    returns for examination are saving the time and resources
                    that examiners would spend manually screening tax returns.
                    While this and other research projects can demonstrate the
                    effectiveness of research efforts, the LMSB Division does
                    not have a systemic process to measure research outcomes
                    against intended results. As a result, the LMSB Division
                    cannot readily determine whether specific projects are
                    achieving their objectives or answer important questions
                    such as “What overall impact is the research having?”
                    Both the Government Accountability Office (GAO)10 and
                    the Treasury Inspector General for Tax Administration
                    (TIGTA) have previously reported that establishing
                    performance measures is critical to the success of any
                    significant project11 and is a requirement under the
                    Government Performance and Results Act of 1993


                    10
                      Formerly the General Accounting Office.
                    11
                      Examples include the GAO report entitled IRS Customer Service:
                    Management Strategy Shows Promise But Could Be Improved
                    (GGD-99-88, dated May 1999) and the TIGTA report entitled The
                    Strategy for Curbing Abusive Corporate Tax Shelter Growth Shows
                    Promise but Could Be Enhanced by Performance Measures (Reference
                    Number 2001-30-159, dated September 2001).
                                                                              Page 8
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    (GPRA).12 Successful projects rely heavily upon
                    performance measures to achieve objectives, quantify
                    problems, evaluate alternatives, allocate resources, track
                    progress, and learn from mistakes.
                    The Committee on Science, Engineering, and Public
                    Policy13 reported in 1999 on the difficulties the research
                    community in the Federal Government was having in
                    developing meaningful ways to measure the effectiveness of
                    research programs. Despite the difficulties, the Committee
                    concluded that, regardless of their nature, all research
                    programs could be evaluated on a regular basis and in
                    accordance with the GPRA. Further, the Committee
                    recommended choosing methods of evaluating research
                    efforts that best match the character of the research.
                    Results of applied research can be evaluated, according to
                    the Committee, in terms of progress being made toward
                    achieving specific outcomes. For example, if the LMSB
                    Division had an objective of finding less expensive ways to
                    identify noncompliance on tax returns, it could measure the
                    results of research aimed at decreasing the cost of screening
                    returns for examination. Where there are ongoing efforts
                    aimed at increasing knowledge through basic research, the
                    Committee found that a peer review14 process is widely used
                    as a best practice to evaluate three aspects of the GPRA:
                    (1) the quality of the research, (2) the relevance of the
                    research to an agency’s mission, and (3) if the research is at
                    the forefront of work being done in the field.
                    The LMSB Division has numerous research projects
                    seeking to further understand the compliance risks with
                    large business for which a peer review could be used to
                    evaluate its efforts. For example, the LMSB Division has


                    12
                       Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                    sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                    13
                       The Committee on Science, Engineering, and Public Policy is a joint
                    committee of the National Academy of Sciences, the National Academy
                    of Engineering, and the Institute of Medicine.
                    14
                       The peer review process generally involves an independent
                    assessment of the technical, scientific merit of research by peers who
                    have the knowledge and expertise equal to that of the researchers whose
                    work they review.
                                                                                   Page 9
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    projects on assigning global indexes15 to tax returns to assess
                    the operating environment and to reveal the state of the
                    multinational operations of its customers, evaluating the
                    effects of foreign tax credits over time, and studying how
                    some large businesses maintain low tax rates despite high
                    published earnings. We recognize that a peer review
                    process will involve additional expenditures for the LMSB
                    Division, particularly if outside experts are involved.
                    However, these costs could be relatively low if, instead of
                    hiring outside experts, the IRS operating divisions
                    coordinated in conducting peer reviews of each other’s
                    research units.
                    Project management guidelines can be strengthened
                    As outlined in the Standards for Internal Control in the
                    Federal Government,16 managers need access to reliable and
                    timely operational data to meet their responsibility of
                    ensuring the effective use of resources. To help research
                    managers in the IRS operating divisions fulfill this
                    responsibility, the SRC has established standards for
                    planning and reporting on individual research projects.
                    Among other things, the standards recommend tracking time
                    frames for completing activities, producing deliverables,
                    and achieving milestones given the estimated resources that
                    will be applied. Tracking such information directly relates
                    to the effective stewardship of resources by helping to
                    answer questions such as “How long are the different steps
                    in the research process taking?” and “Are the time frames
                    that have been set for the process being met?” These
                    techniques are designed to develop plans and control
                    systems to ensure research is completed on time and within
                    budget so needed information is available for executive
                    decision-making purposes.
                    To monitor the progress of research projects in the LMSB
                    Division, procedures require project team leaders to
                    periodically submit status reports to their managers that


                    15
                       Global indexes measure the corporate and international complexity
                    based on the number of foreign subsidiaries, foreign sales revenues, and
                    foreign asset increases.
                    16
                       GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                   Page 10
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    describe the progress being made, problems being
                    encountered, and expected completion dates. In addition,
                    the Research Unit maintains a project management
                    information system that could be used to determine whether
                    projects and specific activities (planning, execution, and
                    reporting) are being completed within budget and on time.
                    However, guidelines needed to determine whether projects
                    and their activities are on time and within budget have yet to
                    be developed. Although some of this information can be
                    found in status reports, these documents are submitted only
                    periodically. Consequently, an important project
                    management tool that managers could use to enhance the
                    monitoring of multiple projects is not available.

                    Recommendations

                    Given the expectations of the LMSB Division Research
                    Unit and the significant level of resources that are
                    depending on its work, we are making recommendations to
                    enhance the processes for managing research. The Director,
                    Strategy, Research, and Program Planning, LMSB Division,
                    should develop, define, and adopt:
                        1. Procedures for the research staff that will ensure
                           support information needed to replicate the research
                           process is consistently maintained in project files
                           and in accordance with the IRS Records
                           Management Program.
                    Management’s Response: The Commissioner, LMSB
                    Division, responded that guidelines will be developed and
                    issued on research documentation to ensure research staff
                    members understand what documentation should be
                    consistently maintained in project files.
                        2. A framework for systemically measuring completed
                           and ongoing research against intended results.
                    Management’s Response: The Commissioner, LMSB
                    Division, responded that guidelines will be issued for
                    measuring research against intended results. The guidelines
                    will reemphasize the need for a final report on each
                    completed research project and require that each report


                                                                          Page 11
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                    contain a section outlining the original project objective(s)
                    and the results of the project as compared to the objective(s).
                        3. Guidelines for determining whether individual
                           projects and their related activities (planning,
                           execution, and reporting) are on time and within
                           budget.
                    Management’s Response: The Commissioner, LMSB
                    Division, responded that a Time Reporting System using
                    Microsoft Project will be implemented to allow for
                    monitoring the planning, execution, and labor costs of all
                    research projects.




                                                                          Page 12
               Important Progress Has Been Made in Using Research to Improve
                   Programs for Large Businesses, but Challenges Remain

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

Our objective was to assess the progress the Large and Mid-Size Business (LMSB) Division1
is making in (1) addressing the concerns raised in past studies of the Internal Revenue
Service’s (IRS) research operations, (2) integrating its research operation into key business
decision-making processes, (3) using research for improving performance on strategic initiatives,
and (4) aligning its research processes with best practices adopted by other research programs.
To meet our objective, we relied on the IRS’ internal management reports and databases. We did
not establish the reliability of these data because extensive data validation tests were outside the
scope of this audit and would have required a significant amount of time. To accomplish our
objective, we:
     I. Reviewed five studies of the IRS to identify past concerns with its research operations
        and obtained information from LMSB Division officials on actions taken to address the
        concerns. The studies included the Government Accountability Office2 reports entitled
        IRS Has Made Progress but Major Challenges Remain (GAO/GGD-96-109, dated
        June 1996) and Internal Revenue Service – Status of the Modernized Research Operation
        (GAO-01-565R, dated April 2001); the IRS Inspection (now the Treasury Inspector
        General for Tax Administration [TIGTA]) report entitled Review of the National Office
        Research Analysis/District Office Research Analysis and Compliance Research
        Information System Implementation (Reference Number 056406, dated September 1995);
        the IRS discussion document entitled Research, dated March 2000; and the TIGTA report
        entitled The Internal Revenue Service Needs to Improve Control of Its Compliance
        Research Program (Reference Number 2000-40-068, dated May 2000).
    II. Obtained information from IRS officials, including representatives of the LMSB
        Division’s Research Unit, on how the IRS’ research program is organized and on the
        LMSB Division’s processes for planning, conducting, monitoring, and evaluating
        research projects.
    III. Analyzed the Treasury Integrated Management Information System (TIMIS)3 and the IRS
         Administrative Corporate Education System (ACES)4 to assess skill and experience
         levels of the LMSB Division research staff.


1
  The LMSB Division serves corporations, sub-chapter S corporations, and partnerships with assets greater than
$10 million.
2
  Formerly the General Accounting Office.
3
  The TIMIS is an information system that supports payroll and personal processing and reporting requirements for
the IRS.
4
  The ACES is an information system used by the IRS to track training and course information for its employees.
                                                                                                          Page 13
          Important Progress Has Been Made in Using Research to Improve
              Programs for Large Businesses, but Challenges Remain

IV. Reviewed various publications on best practices and standards in the research community
    from the Committee on Science, Engineering, and Public Policy; Office of Management
    and Budget (OMB); and IRS Office of Research, Analysis, and Statistics.
V. Used standards developed by the OMB and IRS Quality Assurance Council to evaluate
   the design, data collection and analysis techniques, and reports from a judgmental sample
   of 6 out of 64 research projects that were underway as of June 30, 2003. Judgmental
   sampling was used to minimize time and travel costs.




                                                                                     Page 14
             Important Progress Has Been Made in Using Research to Improve
                 Programs for Large Businesses, but Challenges Remain

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Audit Manager
William Tran, Lead Auditor
Denise Gladson, Auditor
Ali Vaezazizi, Auditor




                                                                                       Page 15
            Important Progress Has Been Made in Using Research to Improve
                Programs for Large Businesses, but Challenges Remain

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Strategy, Research, and Program Planning SE:LM:SR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                               Page 16
             Important Progress Has Been Made in Using Research to Improve
                 Programs for Large Businesses, but Challenges Remain

                                                                                 Appendix IV


    Organizational Chart of the Internal Revenue Service’s Research Operation

The diagram below shows the structure of the research operation. It shows that the Director,
National Headquarters Office of Research, does not have line authority over the research teams
in the operating divisions. Rather, the Commissioners and Directors of Research in each
operating division control budget and resources needed for their respective research teams.




                                                                                        Page 17
                Important Progress Has Been Made in Using Research to Improve
                    Programs for Large Businesses, but Challenges Remain

                                                                                                             Appendix V


        The Internal Revenue Service’s Quality Standards for Research Projects

The Servicewide Research Council, through its Quality Assurance Council (QAC), monitors and
provides feedback to researchers on the quality of their projects. To define research quality, the
QAC uses 11 standards for research planning and 8 standards for research reporting. Each
standard also has several key elements that elaborate on the overall standard. Table 1 provides a
summary of the quality standards and related elements for research planning. Table 2
summarizes the quality standards and related elements for research reporting.

               Table 1: Summary of the Quality Standards for Research Planning
                                   (as of November 2003)
  No.        Standard             Key Elements                                         Overview
   1     Front Matter     •   Cover and Title Page            Front matter should include administrative planning items
                          •   Table of Contents               and an executive summary that discusses the research
                          •   List of Illustrations           problem, objectives, methodology, and costs.
                          •   Executive Summary
   2     Background       •   Research Problem or             Appropriate background information describes the research
                              Questions                       problem, including how the problem was identified, related
                          •   Related Research                research findings and outcomes, and the importance of the
                          •   Importance of Research          research to tax administration.
                          •   Market Segment
   3     Objectives       •   Itemized Project Objectives     Research objectives need to be stated in terms of precisely
                          •   Tied to Research Problems       what the researchers expect to accomplish when the
                              and Issues                      research is completed.
                          •   Clear Project Objectives
   4     Market Segment   •   Definition of the Market        The market segment identifies and discusses the
                              Segment                         characteristics of the taxpayer group(s) affected by the
                          •   Description of Market           research, including their relative size and unique attributes.
                              Segment
                          •   Definition of Comparison
                              Market Segment
   5     Methodology      •   Description of Methodology      The steps or methodology researchers intend to take in
                          •   Statement of Hypotheses         accomplishing their research objectives need to be
                          •   Data Collection Instrument(s)   discussed in detail. These steps could describe sampling
                          •   Sample Design                   plans, data collection techniques, and how research
                          •   Data Analysis Plan              outcomes will be measured.
                          •   Measurement of Results
                          •   Action Standards
   6     Data Needs       •   Description of Data             This section needs to describe what data fields are predictor
                          •   Description of Variables        and predicted, source of data and how data were obtained,
                          •   Data Sources and Procedures     limitation of data, data validation, and completion of the
                              to Obtain Data                  Servicewide Research Data Standards Certification form.
                          •   Servicewide Research Data
                              Standards



                                                                                                                      Page 18
               Important Progress Has Been Made in Using Research to Improve
                   Programs for Large Businesses, but Challenges Remain

  7    Milestones/Action      •   Detailed Schedule              A schedule of research activities is described here to show
       Schedule               •   Time Frames                    major steps needed to accomplish the research objectives,
                                                                 including research tasks, responsible parties, estimated
                                                                 starting and ending dates, and interim deliverables and final
                                                                 deliverables.
  8    Costs and Benefits     •   Research and Non-Research      The standard evaluates whether the costs and benefits such
                                  Staff Time and Costs           as research and nonresearch costs and benefits (actual
                              •   Other Costs                    costs, opportunity costs, changes in perception, etc.) are
                              •   Cost Summary                   fully discussed. The research costs and benefits are shown
                              •   Benefits                       by fiscal year and the total project costs should be stated.
  9    Privacy and Security   •   Privacy and Security           Describes actions taken to safeguard taxpayer data in
                                  (Servicewide Research Data     accordance with established internal procedures and
                                  Standards)                     requirements of law for both privacy and security.
                              •   Using Other Agency Data
  10   Signature Page         •   All Necessary Signature        The Research Chief’s signature appears with the date that
                                  Lines Are Shown                closely corresponds to the revision date of the plan.
                              •   Chief’s Signature Is Affixed
                              •   Date of Chief’s Signature Is
                                  Appropriate
  11   Appendices             •   Signed Data Standards          Appendices should include complex or technical
                                  Certification Form Is          information not included in the body of the report, which
                                  Included                       supports the body of the plan. Appendices usually include
                              •   Official Use Only              Signed Data Standards Certification form, Official Use
                                  Certification Is Included      Only Certification form, if appropriate, and others such as
                                  When Appropriate               Glossary, Checksheets, Sample Plan, and References.
                              •   Other Appropriate
                                  Appendices Are Included
Source: The Internal Revenue Service (IRS) Servicewide Research Council.




                                                                                                                         Page 19
                Important Progress Has Been Made in Using Research to Improve
                    Programs for Large Businesses, but Challenges Remain



             Table 2: Summary of the Quality Standards for Research Reporting
                                  (as of November 2003)
  No.        Standard              Key Elements                                         Overview
   1    Front Matter        •   Cover and Title Page           Front matter should include administrative reporting and an
                            •   Table of Contents              executive summary that discusses the research problem,
                            •   List of Illustrations          objectives, and results.
                            •   Executive Summary
   2    Introduction        •   Research Problem and Its       This section should clearly identify the research problem and
                                Importance                     why it is important to the Internal Revenue Service. It should
                            •   Background and Objectives      provide an outline of the report contents for the reader.
                            •   Purpose and Structure of the
                                Report
   3    Research Methods    •   Research Methodology           The description of research methods used should contain
                            •   Limitation or Plan             sufficient information in a nontechnical presentation so
                                Deviations                     readers can decide whether the research process followed was
                                                               sound.
   4    Research Findings   •   Findings                       This standard evaluates the objective presentation of the
                            •   Objectivity                    findings and the relationship between the findings and the
                            •   Readability                    conclusion. The findings should be written in a clear and
                            •   Documentation                  concise manner.
   5    Conclusion          •   Supported by the Findings      This section should be an interpretation of the findings and
                            •   Explain the Results            should be aligned with research objectives and logically
                            •   Objectives Met                 based on the facts of the findings. It should show how the
                                                               author reached the conclusions and state how the objectives
                                                               were achieved.
   6    Recommendations     • Supported by the Findings        The recommendations section is evaluated for its clarity and
                              and Conclusions                  whether it is supported by and logically follows the findings
                            • Operationally Feasible           and conclusions. It is also reviewed for discussions of the
                            • Describes the Expected           benefits such as revenue generation, compliance increase, etc.
                              Benefits                         that the customer can expect to receive if the
                                                               recommendations were implemented.
   7    Signature Page      •   All Necessary Signature        The Research Chief’s signature appears with the date that
                                Lines Are Shown                closely corresponds to the revision date of the report.
                            •   Chief’s Signature Is
                                Affixed
                            •   Date of Chief’s Signature
                                Is Appropriate
   8    Appendices          •   Signed Data Standards          Required appendices include an abstract and signed Official
                                Certification Form Is          Use Only Certification form. Other appendices that may be
                                Included                       included are glossary, survey instruments, tables and charts,
                            •   Official Use Only              and references.
                                Certification Is Included
                                When Appropriate
                            •   Other Appropriate
                                Appendices Are Included
Source: The IRS Servicewide Research Council.




                                                                                                                       Page 20
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain

                                                           Appendix VI


       Management’s Response to the Draft Report




                                                                Page 21
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain




                                                                Page 22
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain




                                                                Page 23
Important Progress Has Been Made in Using Research to Improve
    Programs for Large Businesses, but Challenges Remain




                                                                Page 24
